NO. ___________

IN THE
UNITED STATES SUPREME COURT
OCTOBER TERM 2020

ANTONIO LOPEZ,
Petitioner,

v.

THE STATE OF TEXAS,
Respondent.

On Petition for Writ of Certiorari
To the Texas Court of Criminal Appeals

APPENDIX (Vol. I)

ROBIN NORRIS
Counsel of Record
2408 Fir Street
El Paso, Texas 79925
robinnorris@outlook.com
(915) 329-4860

TABLE OF CONTENTS

A. ORDER DENYING MOTION TO SUPPRESS EVIDENCE
B. FINDINGS OF FACT AND CONCLUSIONS OF LAW
C. OPINION OF THE TEXAS EIGHTH COURT OF APPEALS
D. OPINION OF THE TEXAS COURT OF CRIMINAL APPEALS
E. MOTION TO SUPPRESS EVIDENCE

APPENDIX A

:·iUI-.;'l,u; -·· ;' >'':"(;_ .·:

IN THE DISTRICT COURTlDJHIDIPMQCOUNTY, TEXAS
171 ST JU~1~{t£

lp~TM.flj{J. 05

THE STATE OF TEXAS
Vs.

ORDER DENYING
DEFENDANT'S MOTION TO SUPPRESS

On September 23R 0 , 2014 and on September 30th, 2014 came on to be heard the
Defendant ANTONIO LOPEZ' Motion to Suppress.

After hearing the evidence and

arguments of eotmsel, therefore the Court hereby denies the Defendant's Motion to
Suppress.

IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that
Defendant ANTONIO LOPEZ' Motion to Suppress is hereby DENIED.

SIGNED and ENTERED this

~

day of December, 2014.

=:>[}

JUDGE BONNIE RANGEL
171 ST Judicial District Court

CC:

ROBIN NORRIS, Defense Counsel
JAIME GANDARA, Public Defender
HOLLY RODRIGUEZ, Assistant District Attorney

173

APPENDIX B

I

CAUSE NO. 20120D04452
STATE OF TEXAS

v.
ANTONIO LOPEZ

§
§
§
§
§
§
§
§

2013 J. :~ 30

H11: 24

El p>t-,SA ,.,

I

O· -

.

'

-

"')

r~:K~~~
-

-

IN TH.E 171 ST DISTRICT COURT
EL PASO COUNTY, TEXAS

FINDINGS OF FACT AND CONCLUSIONS OF LAW

This Court, after having heard defendant's motion to suppress, makes the
following findings of fact and conclusions of law:
FINDINGS OF FACT

1.

The defendant, Antonio Lopez, was indicted on September 10, 2012, for one
count of capital murder (Count I) and one count of murder (Count II) in
cause number 20120D04452 in the 171 st District Court of El Paso County,
Texas.

2.

On October 4, 2013, defendant filed a motion to suppress statements of
defendant.

3.

On September 23, 2014, and September 30, 2014, the Court held a hearing
on defendant's motion to suppress.

4.

The defendant was represented at the motion to suppress hearing by counsel
Robin Norris and Jaime Gandara.

5.

El Paso Police Officers Arturo Ruiz, Jerome Hinojos, Albert Gandara, and
Carlos Heredia testified at the hearing.

12

·'
2

6.

Defense witness Alice Lopez also testified at the hearing.

7.

The Court finds that Ofc. Ruiz met with defendant on July 28, 2012, to
investigate the death of a child.

8.

The Court finds that Ofc. Ruiz asked defendant to accompany him to the
police station by offering defendant a ride, which defendant accepted.

9.

The Court finds that on July 28, 2012, defendant voluntarily went with Ofc.
Ruiz to the police station to give a statement.

I 0.

The Court finds that defendant was cooperative when he gave his statement.

11.

The Court finds that Ofc. Ruiz read Miranda rights to defendant before
defendant gave a statement.

12.

The Court finds that defendant understood and waived his rights and agreed
to give a recorded statement to police.

13.

The Court finds that at no time did defendant ask to terminate the interview
or request an attorney.

14.

The Court finds that at no time did police coerce or threaten defendant into
giving a statement.

15.

The Court finds that police did not promise defendant anything in exchange
for his statement.

16.

The Court finds that defendant was not under the influence of any drugs or
alcohol at the time he gave the statement.

l 7.

The Court finds that at the time defendant gave the recorded statement, he
was not in custody, not under arrest, and was free to leave at any time.

18.

The Court finds that on July 31 , 2012, defendant gave a second statement to
police.

13

3

19.
20.

The Court finds that defendant and his wife, Alice Lopez, drove in their own
car to the police station to give the second statement.
The Court finds that defendant was cooperative when he gave his second
statement.

21.

The Court finds that the second statement was recorded.

22.

The Court finds that police did not force, threaten, or coerce defendant into
giving a second statement.

23.

The Court finds that at the time defendant gave the second statement, he was
not in handcuffs, not in custody, not under arrest, and was free to leave at
any time.

24.

The Court finds that a police officer read Miranda rights to defendant before
defendant gave his second statement.

25.

The Court finds that defendant understood and waived his rights and agreed
to give a second statement to police.

26.

The Court finds that at no time did police coerce or threaten defendant into
giving a second statement.

27.

The Court finds that police did not promise defendant anything in exchange
for his second statement.

28.

The Court finds that defendant was not under the influence of any drugs or
alcohol at the time he gave his second statement.

29.

The Court finds that at the end of the second statement, defendant left the
police station with Alice Lopez and they drove home together in their own
vehicle.

30.

The Court finds that police did not arrest either defendant or Alice Lopez on
July 31, 2012.

14

4

3 l.

The Court finds that on August I, 2012, defendant made a 911 call
confessing to the crime.

32.

The Court finds that on August 1, 2012, Ofc. Gandara responded to the call
and made contact with defendant.

33.

The Court finds that defendant confessed to Ofc. Gandara that defendant
committed the homicide.

34.

The Court finds that at the time defendant confessed to Ofc. Gandara,
defendant was not under arTest or handcuffed.

35.

The Court finds that officers transported defendant to police headquarters,
and that defendant was not under arrest or handcuffed during transport.

36.

The Court finds that prior to transport, Ofc. Heredia read Miranda rights to
defendant.

3 7.

The Court finds that defendant signed the Miranda rights card
acknowledging his rights.

38.

The Court finds that defendant did not make any statements to police during
transport.

39.

The Court finds that on August 1, 2012, defendant gave a third statement to
police.

40.

The Court finds that the third statement was recorded.

4 1.

The Court finds that at the time defendant gave the third statement, he was
not in handcuffs, not in custody, and not under arrest.

42.

The Court finds that a police officer read Miranda rights to defendant before
defendant gave his third statement.
The Court finds that defendant understood and waived his rights and agreed
to give a third statement to police.

43 .

15

5

44.

The Court finds that at no time did police coerce or threaten defendant into
giving a third statement.

45.

The Court finds that police did not promise defendant anything in exchange
for his third statement.

46.

The Court finds that defendant did not ask for an attorney while giving his
third statement.

47.

The Court finds that defendant did not indicate that he wished to stop and no
longer talk to police while giving his third statement.

48.

The Court finds that on August 1, 2012, after giving his third statement,
defendant was arrested by police.

16

6

CONCLUSIONS OF LAW
1.

All of defendant's statements were freely and voluntarily made without
compulsion or persuasion and may be used as evidence against defendant.
TEX. CRIM. PROC. CODE ART. 38.21.

2.

Defendant's statements were not the product of custodial interrogation
because defendant was not in custody when he made the statements, thus
Texas Code of Criminal Procedure article 38.22 § 3 does not apply. TEX.
CRIM. PROC. CODE ART. 38.22 § 3.

3.

Defendant's statements were not taken in violation of the Constitution or
laws of the State of Texas or the Constitution or laws of the United States of
America.

Signed this the M

HONORABLE BO

day of5ai -u AQ~ , 2018.

JUDGE PRESIDING
171 st Judicial District Court
El Paso County, Texas

GEL

17

APPENDIX C

Lopez v. State, Not Reported in S.W. Rptr. (2019)

2019 WL 3812377
Only the Westlaw citation is currently available.
SEE TX R RAP RULE 47.2 FOR
DESIGNATION AND SIGNING OF OPINIONS.
(Do Not Publish)
Court of Appeals of Texas, El Paso.
Antonio LOPEZ, Appellant,
v.
The STATE of Texas, Appellee.
No. 08-17-00039-CR
|
August 14, 2019
Appeal from 171st District Court of El Paso County, Texas,
(TC # 20120D04452)
Attorneys and Law Firms
John L. Davis, Jaime E. Esparza, for The State of Texas.
Robin Norris, for Appellant.
Before McClure, C.J., Rodriguez, and Palafox, JJ.

OPINION
ANN CRAWFORD McCLURE, Chief Justice
*1 A jury found Appellant Antonio Lopez guilty of the
murder of 11-month-old J.B., who died as the result of blunt
force trauma to her body. Upon agreement of the parties, the
trial court sentenced Appellant to 35 years' confinement.
On appeal, Appellant contends that the trial court erroneously
denied his motion to suppress evidence of several recorded
statements he made shortly after J.B.'s death to law
enforcement officers and to a 911 operator, arguing that his
statements were coerced and the result of police overreaching,
and were therefore not freely and voluntarily given. Appellant
contends that the trial court's alleged error in allowing
these statements into evidence violated his rights under the
Fourteenth Amendment of the U.S. Constitution and Articles
38.21 and 38.22 of the Texas Code of Criminal Procedure.
Finding no error, we affirm the trial court's judgment.

FACTUAL BACKGROUND
On June 28, 2012, the day that J.B. died, Appellant and his
wife, Pearl Lopez were living in their home with their two
daughters, ages four and two years old. J.B. had been placed
in the Lopez's home by the El Paso Center for Children on
June 21, 2012, as their first foster child. On that same day,
Appellant and Pearl were also providing temporary respite
care for another foster child, R.R., who was 13-years old at
the time. At some point that morning, Pearl's mother, Alicia,
arrived at the home with three of her own foster children, a
16-year-old intellectually disabled boy, and two girls, ages
11 and 9. Alicia later left the home for approximately 15
minutes to pick up two more foster children, V.F. and J.H.,
whom she had agreed to watch while their foster parent went
to Mexico for two days. Alicia left at an undetermined time
before J.B.'s injuries were discovered, taking with her all of
the foster children in her care except the 11-year-old girl.
Appellant admittedly spent most of the day alone with
J.B. in the couple's master bedroom, where J.B.'s crib was
located, and where the couple had created an office space
in their walk-in closet. The remaining family members and
foster children spent most of the day in the kitchen with
Appellant's wife, preparing breakfast, and later preparing
for an upcoming quinceanera. Approximately two hours
before J.B.'s injuries were discovered, Appellant brought his
daughters into the bedroom to either nap or watch television.
Appellant acknowledged that no one else entered the bedroom
that day, although he did recall hearing someone open a file
cabinet in the bedroom, and assumed it was one of his children
or his wife. 1
According to Appellant, when he approached J.B.'s crib to
change her diaper, he observed J.B.'s eyes crossing and rolling
backwards in her head, and upon lifting her, he noted that
her body was limp. Appellant then called out to his wife for
help, and called 911 at approximately 3:00 p.m., advising the
911 operator that J.B. was in distress. Appellant told both
the 911 operator and the first responders at the scene that he
had been alone all day with J.B. in the bedroom but denied
knowing what had happened to her. J.B. was transported to
the hospital by ambulance but died shortly after her arrival at
approximately 4:00 p.m.

Appellant's First Recorded Statement

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Lopez v. State, Not Reported in S.W. Rptr. (2019)

*2 After police arrived at his home the afternoon of J.B.'s
death, Appellant spoke with Detective Arturo Ruiz and agreed
to travel with him to police headquarters to provide a recorded
statement, which began at approximately 8:00 p.m. At the
start of the recorded statement, Detective Ruiz informed
Appellant that he was not under arrest and that he was free to
leave at any time, but nevertheless advised Appellant of his
Miranda rights, which Appellant expressly waived. 2
After Appellant stated that he wanted to cooperate with
Detective Ruiz, Appellant provided a description of the day's
events, acknowledging that he was alone with J.B. throughout
the day in the master bedroom, except for a brief period of
time when he brought his two children into the bedroom.
Appellant further acknowledged that he, his wife, and his
mother-in-law were the only adults in the house on that day.
Appellant further explained that he and his wife typically
shared the responsibility of caring for J.B., who not yet
walking, was overcoming an aversion to men, and preferred to
be with Appellant's wife; however, Appellant acknowledged
that he was J.B.'s sole caretaker that day.
Appellant recalled that when he approached J.B.'s crib to
change her diaper that afternoon, he observed J.B. “wincing”
or “whimpering,” observed her eyes roll back in her head.
and noted that her lips were “whitish.” He then called out
to his wife for help and called 911 immediately thereafter.
Appellant repeatedly asserted that he did not know what had
caused J.B.'s distress, and that neither he, his wife, nor any
of the children had hurt J.B. After providing his statement,
Appellant was permitted to return home without being placed
under arrest. 3

The Autopsy Findings
An autopsy was performed on J.B.'s body on July 31, 2012
by Dr. Juan Contin, the Deputy Medical Examiner for El Paso
County. Dr. Contin concluded that J.B. had died as the result
of “blunt force injuries to the chest and abdomen.” He further
noted that J.B. had tears in her liver, which caused excessive
internal bleeding, and that she also had “contusions to the
head associated with a fracture of the left occipital bond.”
Dr. Contin concluded that J.B.'s injuries were consistent with
someone striking her with a foot, stomping on her two or
three times--or perhaps as many as six or seven times-using significant force. Given the nature of J.B.'s injuries,
Dr. Contin concluded that they were intentionally inflicted

by someone using a significant amount of force, and that the
manner of death was homicide.

Appellant's Second Recorded Statement
After J.B.'s autopsy had been performed and the cause of her
death identified, the police requested that Appellant and his
wife provide additional statements to police, and Appellant
and his wife thereafter voluntarily drove their own vehicle to
police headquarters to provide their statements. 4 Appellant
provided his second recorded statement to Detective Ruiz and
Detective Jerome Hinojos at police headquarters on July 31,
2012 at approximately 7:30 p.m. Prior to giving his statement,
Detective Hinojos informed Appellant that he was not under
arrest, but once again read Appellant his Miranda rights, and
once again Appellant acknowledged that he understood his
rights was willing to waive them.
*3 Appellant initially provided the same factual scenario
as he did during his first statement to police, again
acknowledging that he was the only adult responsible for
watching J.B. in the master bedroom throughout the day,
but that he did not know what had caused J.B.'s death. The
detectives then informed Appellant that J.B.'s autopsy, which
they had personally observed, revealed that J.B. had died as
the result of a significant blow to her stomach or abdomen,
which occurred within two hours of when Appellant called
911 was made, while he and his wife had legal and physical
possession of J.B. The detectives also stated that the medical
examiner had concluded that J.B.'s injuries were intentional,
and that given the amount of force necessary to have caused
the injuries, they could only have been inflicted by an adult,
and therefore, they did not suspect any of the children who
were in the house on the day of J.B.'s death of causing her
injuries. 5 The detectives repeatedly reminded Appellant that
he had previously acknowledged that he was alone in the
bedroom with J.B. throughout the day, and that he and his
wife were the only two adults in the house responsible for
J.B.'s care in the house that day, which Appellant freely
acknowledged throughout the interview.
However, Appellant continually denied that he had any
involvement in J.B.'s death and stated that he had no
explanation for how J.B. was injured, other than to repeatedly
say that “something went wrong that day.” In response, the
detectives repeatedly stated that absent any other “reasonable
explanation” for how J.B. was injured, this meant that either
Appellant or his wife, or perhaps both, inflicted the injuries

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Lopez v. State, Not Reported in S.W. Rptr. (2019)

and were therefore responsible for J.B.'s death. Despite these
statements, the detectives made it clear that their focus was on
Appellant, in part because they did not believe that his wife
was physically capable of inflicting the injuries on J.B., and in
part because Appellant had repeatedly told them that he was
the only adult taking care of J.B. on the day of her death. 6
After Appellant repeatedly claimed that he did not know what
happened to J.B., the detectives then switched tactics and
began asking Appellant about his religious faith and his active
role in his church, which Appellant had mentioned earlier in
the interview. Appellant expressed his belief that if a person
who had committed a crime, such as a murder, he could only
be “forgiven” and allowed to enter the “Kingdom of God,” if
he asked for God's forgiveness, as well as “forgiveness under
man's law,” meaning that the person would need to be honest
about his actions.
Appellant was allowed to leave police headquarters, along
with his wife, at approximately 10:08 p.m. that night without
being placed under arrest. Appellant's wife testified at the
suppression hearing that upon leaving police headquarters,
she informed Appellant that the police had threatened to arrest
her if she did not tell them what she knew about J.B.'s death,
and that if she did not, one or both of them would be going
to jail for murder, and that their children could be removed
to foster care. 7 She recalled that Appellant responded by
telling her that he intended to turn himself in, even though he
denied being responsible for hurting J.B. 8 She testified that
she then took Appellant to their home, and thereafter went to
her parents' house for the night. Appellant's wife later called
Detective Hinojosa and left a message saying that Appellant
was going to turn himself in; however, she admittedly did not
advise the detective that Appellant was doing so because of
any threats made to her or Appellant.

police headquarters, but was not handcuffed or placed under
arrest at that time.
Appellant gave his third recorded statement at police
headquarters that same morning, at approximately 4:00 am
to Detective Hinojos. Before taking Appellant's statement,
Detective Hinojos once again read Appellant's Miranda
rights to him, and Appellant once again acknowledged
that he understood his rights, and that he was knowingly,
intelligently, and voluntarily waiving those rights.
Detective Hinojos began the interview by asking Appellant
whether he had told the truth in earlier interviews regarding
the cause of J.B.'s injuries, and in response, Appellant began a
protracted and uninterrupted soliloquy in which he stated that
approximately ten to fifteen minutes before he called 911, his
daughters had left the bedroom to be with his wife, and he
had picked J.B. up from her crib. Appellant recalled that when
J.B. began crying, he became upset because he believed J.B.
did not want to be with him, and he then put J.B. down on the
floor, and “stomped on her like two times, three times.” At
the detective's request, Appellant demonstrated how he had
stomped on J.B. Appellant recalled that he then picked up
J.B., who was gasping for air, and saw her eyes cross and roll
back in her head, and felt her body go limp. He further recalled
that when he placed J.B. back in her crib, she could not sit
up; after trying to assist her by blowing into her mouth two or
three times, he called his wife for help.
Appellant explained that he was confessing in part because
of his religious beliefs--as discussed during the earlier
interview--but also because he did not want to die on death
row, and that he hoped that he would be released from prison
one day to be able to see his family again. Appellant was
thereafter arrested and charged with capital murder.

The 911 Call and the Third Recorded Statement

The Motion to Suppress

*4 Early the next morning on August 1, 2011, at
approximately 1:31 a.m., Appellant called 911, and after
providing his name and address to the 911 operator, he stated
that he was “confessing” to a homicide that had occurred at
his house on July 28, and that he wanted a police officer to
come pick him up. Although not certain if the call was a
prank, a patrol officer arrived at Appellant's house in a marked
patrol car, and Appellant stepped outside. Appellant informed
the officer that he was responsible for the homicide of his
11-month-old foster child. Appellant was then transported to

Prior to his trial, Appellant moved to suppress he recorded
statements he made to law enforcement officers on August
1, 2012, arguing that they were not freely and voluntarily
made because the detectives had repeatedly threatened to
arrest both him and his wife and have their children removed
from them and placed in foster care if he did not confess.
The trial court heard Appellant's motion to suppress over a
two-day period, taking witness testimony and listening to the
various recordings. The trial court denied Appellant's motion

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Lopez v. State, Not Reported in S.W. Rptr. (2019)

and thereafter allowed the State to admit all of Appellant's
recorded statements into evidence at his trial.
After Appellant appealed his conviction, at this Court's
request, the trial court entered written findings of fact and
conclusions of law with regard to its decision, expressly
finding that Appellant voluntarily went to police headquarters
to provide all three of his statements, and that he was properly
read his Miranda rights on all three occasions, and that he
freely and voluntarily waived those rights. The trial court
further concluded that the detectives did not coerce and/or
threaten Appellant into giving any of his statements. The trial
court therefore concluded that Appellant's statements were
freely and voluntarily made in compliance with Articles 38.21
and 38.22, as well with all constitutional requirements.
*5 At trial, the jury was instructed in general terms
that a defendant's confession may only be considered if
it was made freely and voluntarily without compulsion or
persuasion; the trial court also specifically directed the jury
to disregard Appellant's recorded statements if it had a
reasonable doubt regarding whether they were made as the
result of a “threat that his wife would be arrested and his
children would be taken from their home.” Following trial, the
jury found Appellant guilty of J.B.'s murder, and Appellant
was sentenced to 35-years' confinement in prison.

DISCUSSION
In two related issues, Appellant contends that the trial court
erred when it denied his motion to suppress and that the
trial court's error violated his rights under the Due Process
Clause of the Fourteenth Amendment to the United States
Constitution, and Articles 38.21 and 38.22 of the Texas Code
of Criminal Procedure. Because we agree with the trial court
that Appellant's statements were not coerced and were instead
given freely and voluntarily and without compulsion, we
conclude that the trial court did not err in denying the motion
to suppress.

Standard of Review
We review an appeal from a trial court's ruling on a motion
to suppress for an abuse of discretion and apply a bifurcated
standard of review. State v. Luna, 08-16-00273-CR, 2019
WL 1925004, at *4 (Tex.App.--El Paso Apr. 30, 2019,
no pet.)(not designated for publication), citing Weems v.

State, 493 S.W.3d 574, 577 (Tex.Crim.App. 2016). Under
this bifurcated standard, we are required to afford almost
total deference to the trial court's determination of historical
facts, especially when those determinations are based on
assessments of witness credibility and demeanor. Id., citing
Furr v. State, 499 S.W.3d 872, 877 (Tex.Crim.App. 2016)).
When, as here, a trial court makes express findings of fact,
we must first determine whether the evidence, when viewed
in the light most favorable to the trial court's ruling, supports
those findings. Id., citing Valtierra v. State, 310 S.W.3d
442, 447 (Tex.Crim.App. 2010). However, we conduct a de
novo review with regard to pure questions of law, to mixed
questions of law and fact that do not hinge on credibility or
demeanor, and to the trial court's application of the law to
the facts. Id., citing State v. Woodard, 341 S.W.3d 404, 410
(Tex.Crim.App. 2011); Brodnex v. State, 485 S.W.3d 432, 436
(Tex.Crim.App. 2016).

The Police May Make Truthful Statements to an Accused
A confession may be rendered inadmissible under both
the Due Process Clause and Article 38.22 of the Code of
Criminal Procedure if it was not voluntarily made. Luna
2019 WL 1925004, at *8, citing Oursbourn v. State, 259
S.W.3d 159, 169-70 (Tex.Crim.App. 2008). Under the Due
Process Clause, a statement may be rendered involuntary due
to police overreaching or misconduct, but only if it rises to
the level at which the defendant's will was “overborne and
his capacity for self-determination critically impaired.” Id.,
citing ; see also Craeger v. State, 952 S.W. 2d 852, 856
(Tex.Crim.App. 1997)(the ultimate test in determining the
voluntariness of a confession is whether the defendant's will
was overborne by police coercion). Statements that have been
found to be involuntary under the Due Process Clause include
factual scenarios in which a suspect was subjected to threats,
physical abuse, or extended periods of interrogation without
rest or nourishment. Luna, 2019 WL 1925004 at *8, citing
Oursbourn, 259 S.W.3d at 170-71.
Texas law generally allows for a broader inquiry when
considering involuntariness issues and allows a court to
consider more subjective considerations that are not relevant
to Due Process claims. Luna, 2019 WL 1925004 at *8, citing
Oursbourn, 259 S.W.3d at 169-71. Under Article 38.21 of
the Texas Code of Criminal Procedure, a statement may be
used against a defendant only if it was “freely and voluntary
made without compulsion or persuasion ....” TEX.CODE
CRIM.PROC.ANN. § 38.21. In turn, section 6 of Article

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Lopez v. State, Not Reported in S.W. Rptr. (2019)

38.22 provides that “where a question is raised as to the
voluntariness of a statement of an accused, the court must
make an independent finding in the absence of the jury as to
whether the statement was made under voluntary conditions.”
TEX.CODE CRIM.PROC.ANN. § 38.22, § 6. If the trial
court determines that a statement was made voluntarily, then
the statement may be submitted to the jury, but the jury
must be instructed that unless it believes beyond a reasonable
doubt that the statement was “voluntarily made,” it may
not consider the statement for any purpose. TEX.CODE
CRIM.PROC.ANN. § 38.22, § 6.
*6 In determining the voluntariness of a confession under
the Code, Texas courts employ a totality of the circumstance
test, and consider all of the circumstances surrounding its
acquisition. Luna, 2019 WL 1925004, at *9, citing Wyatt
v. State, 23 S.W.3d 18, 23 (Tex.Crim.App. 2000); Delao v.
State, 235 S.W.3d 235, 239 (Tex.Crim.App. 2007). In general,
the State has the burden of proving the voluntariness of a
confession, and it must satisfactorily negate the accused's
allegations of coercion in order to satisfy its burden of proof.
Vasquez v. State, 411 S.W.3d 918, 920, n.11 (Tex.Crim.App.
2013); Zuliani v. State, 903 S.W.2d 812, 821 (Tex.Crim.App.
1995).
In the present case, Appellant argues that his confession was
coerced and was not freely and voluntarily given because the
detectives conducting his second interview made threats to
arrest his wife if he did not confess to J.B.'s murder, and
further threatened that his children would be taken away
from him; he characterizes these alleged threats as being
“inherently coercive,” claiming that they caused his will to
be overborne. Appellant is correct that, in some instances,
a threat to arrest an accused's family member--whether
express or implied--may result in a confession being rendered
involuntary. Luna, 2019 WL 1925004, at *9, citing Roberts
v. State, 545 S.W.2d 157, 161 (Tex.Crim.App. 1977)(threat
made by police officers to arrest or punish a close relative
or a promise to free a relative of a prisoner in exchange for
a confession may render the prisoner's subsequently made
confession inadmissible in evidence); see also Contreras, 312
S.W.3d at 577 (threats to arrest and prosecute defendant's
wife raised a fact issue regarding whether his confession
involuntary).
However, a confession is not rendered inadmissible in every
instance in which the police have made statements regarding
the potential liability of an accused and his family members.
To the contrary, as we recently recognized in Luna, the police

are entitled to make truthful statements to an accused that
accurately reflect the potential consequences that an accused
and his family member are facing, such as the potential
that they could be arrested and prosecuted for a crime, and
the resulting prospect that they could lose custody of their
children in the process. Luna, 2019 WL 1925004 at *10, citing
United States v. Phillips, 230 Fed. Appx. 520, 524-25 (6th
Cir. 2007)(focusing a suspect's attention on the potential legal
consequences of his actions is not self-evidently coercive;
indeed, it is more likely to focus the mind on the importance
of answering questions accurately, voluntarily or not at
all); United States v. Gallardo-Marquez, 253 F.3d 1121,
1123 (8th Cir. 2001)(defendant's confession was voluntary
where officers' statements to the effect that he would be
going to jail for life and that he should therefore cooperate
with the government to reduce his jail time were “accurate
representations” of the defendant's situation); United States
v. Braxton, 112 F.3d 777, 782 (4th Cir. 1997)(recognizing
that a law “enforcement officer may properly tell the truth
to the accused,” and that “[t]ruthful statements about [the
defendant's] predicament are not the type of ‘coercion’ that
threatens to render a statement involuntary.”); Hernandez
v. State, 421 S.W.3d 712, 720 (Tex.App.--Amarillo 2014,
pet. ref'd)(where interrogator made a statement regarding the
potential length of a prison sentence faced by defendant, this
was nothing more than “an accurate representation of [the
defendant's] predicament that did not render the confession
involuntary).
*7 Thus, in Luna, we concluded that because the police had
probable cause to arrest the appellant's wife and other family
members, all of whom were involved in a brawl that led to the
victim's death, they did not engage in improper overreaching
when they advised the appellant that his wife could be
arrested, and that if so, they could potentially lose custody
of their children. Luna, 2019 WL 1925004, at *10, citing
Contreras, 312 S.W.3d at 576. Instead, we concluded that
the threats were instead simply truthful representations of the
situation that the appellant was facing. Id., citing Hernandez
v. State, 421 S.W.3d 712, 721 (Tex.App.--Amarillo 2014,
pet. ref'd)(officer's statements emphasizing to appellant that
she faced separation from her children were not threats of
governmental action to punish a failure to cooperate but
were accurate representations of her predicament); United
States v. Santos-Garcia, 313 F.3d 1073, 1079 (8th Cir.
2002)(confession was not involuntary where the interrogating
officers told the suspect that his story did not make sense and
that his children would be driving by the time he was released

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Lopez v. State, Not Reported in S.W. Rptr. (2019)

from prison, finding that the statement was simply an accurate
representation of the defendant's predicament).

The Nature of the Detectives' Statements
In the present case, Appellant chronicles 17 statements that
he believes constituted threats to arrest his wife if he did
not confess to J.B.'s murder. However, a closer review
of the challenged statements reveals that the majority of
the statements were nothing more than descriptive, factual
statements regarding the situation that Appellant and his wife
were facing, i.e., that they were the only two responsible
adults in a house where an 11-month old infant died as
the result of multiple brunt force trauma, and that absent
any other “reasonable explanation” for how the trauma was
inflicted, either Appellant or his wife--or perhaps both-were responsible for the infant's death. 9 We do recognize,
however, that in at least two instances, the police went a
step further, and stated that unless Appellant could give a
“reasonable explanation” for J.B.'s death, then both he and his
wife could be arrested and face time in jail and/or prosecution.
First, the detectives stated that if they had to take “this to
court,” one or both of them could be “locked up” while the
courts decided what to do with them, and while they did not
believe that his wife committed the murder, “[i]f she has to
answer for it, then she's gonna [sic] have to answer for it, too.”
Second, the detectives expressed their belief that Appellant's
wife, while not necessarily a primary suspect in the murder,
could be “covering” for Appellant; they then stated that both
of them could go to jail and their “kids [could] go to foster
care ... and then hopefully the[y] don't end up with a family
like yours and end up on a slab where I have to go see them
get cut open--- and then blood leak out of their stomachs.” 10
While these statements can be considered “threats” to arrest
Appellant's wife, we conclude that the statements were
supported by probable cause and that the police did not
engage in any overreaching or misconduct in making the
statements. 11 As explained above, Appellant admitted to the
detectives that he and his wife were the only two responsible
adults in the house at the time of J.B.'s death, and the
detectives had ruled out the possibility that any of the children
present in the house could have inflicted the fatal blows to J.B.
Therefore, the only two suspects in the case were Appellant
and his wife, and the detectives truthfully advised Appellant
that they were both subject to arrest, either as primary suspects
or as accomplices after the fact. See, e.g., Diaz v. State,

No. 13-14-00675-CR, 2017 WL 4987665, at *5 (Tex.App.-Corpus Christi Nov. 2, 2017, pet. ref'd)(not designated for
publication)(where police had probable cause to believe
that defendant's parents were responsible for hindering the
defendant's apprehension, defendant's confession was not
rendered involuntary where the police advised the defendant
of the possibility that his parents could be arrested).
*8 In reaching this conclusion, we find it helpful to contrast
Appellant's situation with the situation faced by the defendant
in Contreras v. State. In Contreras, the defendant had been
home alone with his sister-in-law's child and when the other
family members returned, they found that the child was
lifeless, and was later pronounced dead. Contreras, 312
S.W.3d. at 570. During his interrogation, the police told the
defendant that if he did not confess, they could arrest his wife,
as she took care of the child during the week; they further
stated that if she was arrested, Child Protective Services
would take away their children. Id. at 570. In determining
whether these threats rendered the defendant's confession
involuntary, the Court noted that various federal and state
courts have held that “law enforcement officials can threaten
to arrest a family member, without vitiating the voluntariness
of a confession, if they can lawfully effectuate such an arrest
(i.e., if there is probable cause to arrest).” Id. at 577. Although
the Court in Contreras declined to decide whether to adopt
such a rule in Texas, the Court found it significant that the
officers in that case did not have probable cause to arrest the
defendant's wife, as she was not with the child at the time she
died, thereby raising a question regarding the voluntariness
of the confession on that basis. 12 Id. at 577; see also Tovar
v. State, 709 S.W.2d 25, 28 (Tex.App--Corpus Christi 1986,
no pet.)(finding confession was inadmissible where police
threatened to arrest accused's wife for possession of marijuana
where there was no evidence that the police suspected her of
exercising any care, custody or control over the marijuana at
the time it was discovered).
Unlike the situation in Contreras, Appellant's wife was in
the house with Appellant at the time J.B.'s injuries were
inflicted, was legally responsible for J.B.'s care, and had
access to J.B. throughout the day. As such, the detectives
accurately and truthfully informed Appellant that they were
both suspects in J.B.'s death, and that both could be arrested,
and as a corollary to this, the detectives also accurately and
truthfully informed Appellant that if both he and his wife
were arrested, their children could be placed in foster care. 13
While Appellant may have been motivated to confess in
part by the desire to extricate his innocent wife from the

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Lopez v. State, Not Reported in S.W. Rptr. (2019)

prospect of being arrested for his crime, this does not in
itself render his confession involuntary, and instead, at most
created a jury question regarding whether his confession
was voluntarily given. See, e.g., Roberts, 545 S.W.2d at
161 (a confession is not rendered involuntary by threats to
arrest a prisoner's relative, where the “prisoner has created
conditions which place an innocent relative under suspicion
and the prisoner desires to extricate the relative from this
position by making a confession and the confession is selfmotivated.”). We therefore conclude that the trial court did not
abuse its discretion in finding that Appellant's confession was
made voluntarily and in submitting the matter to the jury for
resolution. As such, we hold that the trial court did not violate
either Appellant's constitutional or statutory rights when it
admitted the confession at Appellant's trial. 14

Harmless Error Analysis
*9 And finally, we agree with the State that even if the
trial court erred in admitting Appellant's recorded statements
into evidence, the admission of the statements was not
reversible error. See, e.g., Zuliani v. State, 903 S.W.2d 812,
823 (Tex.App.--Austin 1995, pet. ref'd), citing Arizona v.
Fulminante, 499 U.S. 279, 310 (1991)(recognizing that the
admission of a coerced conviction is considered trial error and
is subject to a harmless error analysis). As the State points
out, at trial, the jury received evidence, without any objection
from Appellant, of a separate confession that Appellant made
on August 2, 2012--the day after his confession to Detective

Hinojos---to an investigator from the Texas Department of
Family and Protective Services, who had been assigned
to conduct a non-criminal investigation into J.B.'s death.
Specifically, the investigator testified at trial that Appellant
confessed to him that he had picked J.B. out of her crib,
laid her face up, and then stomped on her twice. As the
jury received evidence of Appellant's August 2nd confession
without objection from Appellant, we conclude that any error
in admitting his August 1 st confession was thereby rendered
harmless. See generally Leday v. State, 983 S.W.2d 713,
717-18 (Tex.Crim.App. 1998), citing Crocker v. State, 573
S.W.2d 190, 201 (Tex.Cr.App.1978)(“It is well established
that the improper admission of evidence does not constitute
reversible error if the same facts are shown by other evidence
which is not challenged.”); see generally Lane v. State, 151
S.W.3d 188, 193 (Tex.Crim.App. 2004)(“An error [if any] in
the admission of evidence is cured where the same evidence
comes in elsewhere without objection.”).
Appellant's issues one and two are overruled.

CONCLUSION
The trial court's judgment is affirmed.
All Citations
Not Reported in S.W. Rptr., 2019 WL 3812377

Footnotes

1
2
3
4
5
6
7
8

According to Appellant, his wife later informed him that she had not opened the file cabinet.
Appellant does not raise any issues regarding whether he was properly advised of his Miranda rights and/or whether he
voluntarily waived those rights prior to giving any of his recorded statements.
R.R. was also interviewed that day at the Advocacy Center for the Children of El Paso, and she was similarly unable to
provide any explanation for J.B.'s death.
The couple also agreed to drop their two daughters off at the Child Advocacy Center on their way to police headquarters
so that their daughters could be interviewed. It does not appear that the daughters were able to provide any additional
information regarding the cause of J.B.'s injuries.
In addition, during his interviews with police, Appellant repeatedly stated that because of the nature of her respite stay
status, R.R. was only permitted to engage with J.B. while supervised, and Appellant stated that he and his wife never left
R.R. alone with J.B. The detectives therefore eliminated R.R. as a suspect on that basis as well.
In addition, the detectives advised Appellant that the older children who had been in the house that day of J.B.'s death
had been interviewed, and that they all stated that Appellant's wife had been in a different part of the home that day.
At the hearing on Appellant's motion to suppress, Detective Hinojos denied threatening Appellant's wife with arrest.
Appellant's wife testified at trial that she believed Appellant was innocent and that he only confessed because he was
afraid that she would be put in jail and their children would be taken away from them.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

Lopez v. State, Not Reported in S.W. Rptr. (2019)

9

10
11

12

13
14

For example, during the second recorded interview, the detectives made the following statements: “[I]t's either you or
your wife....” “And if you didn't do it, then I guess your wife made the mistake, okay?” “But the thing is that that child
suffered injuries at your hand or the hands of your wife, or both ....” “But I can tell you right now, okay that that child
suffered those injuries under your hand--or your wife's hand. Period. Period. Okay? It's not a mysterious injury, okay?”
Earlier in the interview, Detective Ruiz informed Appellant that he had observed J.B.'s autopsy and that it was
“unbelievable” that he had to watch “an 11-month-old baby on [a] slab getting cut open.”
The test for determining whether probable cause exists is an objection one, and depends on whether the facts and
circumstances within an officer's knowledge and of which he had reasonably trustworthy information were sufficient to
warrant a prudent man in believing that the arrested person had committed or was committing an offense. Luna, 2019
WL 1925004, at *10, citing Nelson v. State, 848 S.W.2d 126, 133 (Tex.Crim.App. 1992); Amador v. State, 275 S.W.3d
872, 878 (Tex.Crim.App. 2009).
In Contreras, the appellant's only complaint on appeal was that the trial court failed to instruct the jury not to consider his
confession if it found that it was involuntarily given in light of the threats that were made to arrest his wife. Contreras, 312
S.W.3d at 570. As set forth above, the jury herein was given such an instruction, but Appellant argues that his confession
should have been suppressed altogether.
As well, given what occurred to J.B. in foster care, the detectives were not untruthful in raising the prospect that their own
children could also be injured if placed in the wrong hands.
The State also argues that there was no causal connection between the alleged threats made by the detectives and
the defendant's confession, given the lapse in time that occurred between the threats and Appellant's confession. The
State is correct that in some instances, when a defendant when there is a significant break between the time the police
threaten the defendant and the time the defendant confesses, this may break any causal connection between the threats
and the confession, thereby rendering the confession admissible at trial, See, e.g., Zuliani v. State, 903 S.W.2d 812, 822
(Tex.App.--Austin 1995, pet. ref'd)(“An interruption in the stream of events between the initial coercion and the confession
has been recognized as significant” in determining the voluntariness of a confession). Appellant counters that the causal
connection was not broken, as the evidence demonstrated that he announced his decision to his wife that he intended to
confess to police immediately after leaving police headquarters on their drive home. Given our conclusion that Appellant's
confession was not the result of police overreaching or misconduct, and that it was instead freely and voluntarily made,
we need to address the State's argument on this point.

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

APPENDIX D

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

610 S.W.3d 487
Court of Criminal Appeals of Texas.

[2]

[3]

Constitutional Law
Circumstances Under
Which Made; Interrogation
Criminal Law
What constitutes voluntary
statement, admission, or confession

Synopsis
Background: Defendant was convicted in the 171st District
Court, El Paso County, of murder. Defendant appealed. The
El Paso Court of Appeals, McClure, C.J., 2019 WL 3812377,
affirmed. Defendant appealed.

Involuntariness of a confession is reviewed
under the Due Process Clause and the Texas
statutes governing statements and when they
may be used by examining the totality of
the circumstances surrounding the confession,
abrogating State v. Luna, 2019 WL 1925004.
U.S. Const. Amend. 14; Tex. Crim. Proc. Code
Ann. arts. 38.21, 38.22.

Holdings: The Court of Criminal Appeals, Hervey, J., held
that:
[1] involuntariness of a confession is reviewed under the Due
Process Clause and the Texas statutes governing statements
and when they may be used by examining the totality of the
circumstances surrounding the confession, abrogating State v.
Luna, 2019 WL 1925004, and

Review De Novo

The Court of Criminal Appeals will review de
novo a trial court's legal conclusions and its
resolution of mixed questions that do not turn on
credibility or demeanor.

Antonio LOPEZ, Appellant
v.
The STATE of Texas
NO. PD-0956-19
|
Delivered: November 4, 2020

Criminal Law

2 Cases that cite this headnote
[4]

Constitutional Law
Circumstances Under
Which Made; Interrogation
To prevail on a due-process “involuntary
confession” claim, a defendant must show
(1) that police engaged in activity that was
objectively coercive, (2) that the statement is
causally related to the coercive government
misconduct, and (3) that the coercion overbore
the defendant's will. U.S. Const. Amend. 14.

[2] detectives' statements to defendant did not cross the line
into objectively coercive conduct that would have rendered
defendant's confession involuntary.
Affirmed.

2 Cases that cite this headnote
West Headnotes (9)
[1]

Criminal Law
obtained

[5]
Evidence wrongfully

The Court of Criminal Appeals will afford almost
total deference to the trial court's findings of
historical facts that are reasonably supported
by the record and to its resolution of mixed
questions that turn on credibility or demeanor
when reviewing a ruling on a motion to suppress.

What constitutes voluntary
Criminal Law
statement, admission, or confession
Claims of involuntariness of a confession can
be, but need not be, predicated on police
overreaching; they can also involve sweeping
inquiries into the state of mind of a criminal
defendant who has confessed that are not of
themselves relevant to due process claims. U.S.
Const. Amend. 14; Tex. Crim. Proc. Code Ann.
art. 38.22.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

2 Cases that cite this headnote
[6]

Criminal Law

[9]
Threats to third persons

Whether police threats to arrest a defendant's
close family member can constitute objective
coercive conduct sufficient to render a
confession involuntary depends on the facts of
each case.

[7]

Criminal Law

What constitutes such cause in

Probable cause for an arrest requires an
evaluation of probabilities, and probabilities
are the factual and practical considerations of
everyday life on which reasonable and prudent
men, not legal technicians, act. U.S. Const.
Amend. 4.

Threats to third persons

The difference between a threat to arrest a
defendant's close family member that weighs in
favor of finding police overreach sufficient to
render a confession involuntary versus one that
does not can be a fine line, and courts must
carefully consider, not only the complained-of
statements, but also the context in which they
were made, including the demeanor of the person
who made them and the truth or falsity of the
statements. U.S. Const. Amend. 4.

[8]

Arrest
general

Constitutional Law

Particular cases

Criminal Law

Threats; Fear of Injury

Criminal Law

Threats to third persons

Detectives' statements to defendant, in which
detectives told defendant that if he and his
wife continued to deny involvement in foster
child's death they could both be arrested, and
their children could go into foster care, did not
cross the line into objectively coercive conduct
that would have rendered defendant's confession
involuntary under the Due Process Clause or the
Texas confession statutes; defendant voluntarily
went to police station to give his statement, he
was Mirandized, but waived those rights, he was
told that he was not under arrest, was not placed
in handcuffs, was told that he could leave at any
time, and the police had probable cause to arrest
both defendant and his wife based on defendant's
admission that he and his wife were the only
adults in the house when the child sustained the
injuries the medical examiner determined could
only have been made by an adult. U.S. Const.
Amends. 4, 14; Tex. Crim. Proc. Code Ann. arts.
38.21, 38.22.

*488
ON
APPELLANT'S
PETITION
FOR
DISCRETIONARY REVIEW FROM THE EIGHTH
COURT OF APPEALS, EL PASO COUNTY
Attorneys and Law Firms
Robinson R. Norris Jr., for Appellant.
John L. Davis, for State.

OPINION
Hervey, J., delivered the opinion of the Court in which Keller,
P.J., Keasler, Richardson, Newell, Walker, and Slaughter, JJ.,
joined.
**1 Antonio Lopez, Appellant, confessed to killing his 11month-old foster child, J.B. He was indicted in two counts
for capital murder and murder. He filed a motion to suppress,
arguing that his confession was inadmissible because it was
involuntary under the Due Process Clause and Article 38.21
of the Texas Code of Criminal Procedure. U.S. Const. amend.
XIV; Tex. Code Crim. Proc. art. 38.21 (statement of accused
is inadmissible unless it was given “freely and voluntarily
made without compulsion or persuasion.”). According to
him, he confessed only after police told him that, if he did
not, he and his wife might be arrested and that, if they
were, Child Protective Services (CPS) might take away their
other children. The trial court denied the motion and filed
findings of fact and conclusions of law. A jury acquitted
Lopez of capital murder, but convicted him of murder. The
trial court sentenced him to 35 years’ confinement based on
the agreement of the parties.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

On appeal, Lopez argued that the trial court should have
granted the motion to suppress, but the court of appeals
affirmed the lower court's ruling. It reasoned that a confession
is voluntary under the Due Process Clause and articles 38.21
and 38.22 even when it is obtained by threatening to arrest a
defendant's close family member, so long as the police had
probable cause to arrest the family member when the threat
was made. The court further concluded that the police had
probable cause to arrest Lopez and his wife because they were
*489 the only two adults in the house when the injuries
were inflicted, and the medical examiner told police that the
injuries were intentionally inflicted by an adult, ruling out the
possibility that one of the other children was responsible.
We agree that Lopez's confession was voluntary, but not based
on the probable-cause analysis used by the court of appeals.
Rather, we reach that result by examining the totality of the
circumstances surrounding the confession. The existence of
probable cause is only a factor in the analysis.

FACTS
The day of the offense, June 28, 2012, Lopez and his wife,
Pearl Lopez, were at home with five children: their two
biological daughters, who were two and four years old, J.B.,
a 13-year-old girl who they were supervising while her foster
parents were on vacation, and Pearl's mother's 11-year-old
foster child.1 J.B. was placed with them about a month before
the offense and was the family's first foster child.
Lopez told police that J.B.’s crib was in the master bedroom
and that he had converted the master-bedroom walk-in closet
into an office. He said he was in and out of the bedroom
and his office and that he took care of J.B. almost all day
except for when he would sometimes leave J.B. for a few
minutes to check on his wife and the kids who were making
a cake in the kitchen. In the afternoon, Lopez brought his
two biological daughters into the master bedroom to watch
television because Pearl said that they were bothering her.
Lopez told police that he heard someone open the filing
cabinet in the bedroom when he was in the office, and he
assumed that it was Pearl, but asked his wife later, who denied
that it was her. Lopez said that it was probably one of his
daughters who liked to color and would sometimes get paper
out of the filing cabinet.
**2 Lopez first noticed something wrong with J.B. when
he picked her up to change her diaper in the afternoon and

saw that her eyes were crossed and rolling back into her
head. Lopez called out for his wife, telling her that J.B.
was non-responsive, and Pearl ran into the bedroom. She
could not rouse J.B. and told Lopez to call 911. He did,
and an ambulance arrived a short time later. The paramedic
transported J.B. to a nearby hospital where she died a short
time later.
Detective Arturo Ruiz was dispatched to the scene and spoke
to Lopez. Police had no reason to suspect foul play, but they
still wanted to investigate because an infant had died, so Ruiz
asked for and obtained consent to search the house. (Ruiz
said that police took pictures of the area, took some bedding
from the crib, and took measurements of the crib, among
other things.) He also asked Lopez if he was willing to give a
statement at the police station, and Lopez agreed. Lopez's car
was not at the house, so Ruiz offered to give him a ride. Lopez
accepted, and they drove to the station. When they arrived,
they went into an interview room, and Ruiz and Detective
Jerome Hinojos took Lopez's first statement.

a. First Statement
The interview began at about 10:15 p.m. Ruiz began it by
reading Lopez his Miranda rights and informing him that he
was not under arrest and was free to leave *490 at any time.
Lopez waived his rights and said that he wanted to cooperate
with the investigation. He told them that he was home at the
time of the offense with his wife, their two biological children,
the 13-year-old girl they were providing respite care for, and
his mother-in-law's 11-year-old foster daughter, and that the
first time he noticed something wrong with J.B. was in the
afternoon when he saw that her eyes were “kind of crossed”
and going back into her head.
Ruiz asked Lopez how he and his wife became foster parents,
which Lopez explained. He also told Ruiz and Hinojos that
J.B. was their first foster child and that she was placed with
them just over a month before she was injured. Ruiz asked
Lopez if J.B. had any medical conditions when she was placed
with his family, and Lopez said no, that she was healthy.
Ruiz also briefly asked Lopez about J.B.’s crib, then
concluded the interview at 10:55 p.m.

b. Autopsy Results

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

No autopsy report was entered into evidence at the
suppression hearing, and the medical examiner did not testify.
But Ruiz and Hinojos learned from the medical examiner
that, given the severity of the injuries, they were intentionally
inflicted by an adult, and the injuries were consistent with
someone kicking or stomping on J.B., who died from internal
bleeding. Her stomach was full of blood. She had a massive
laceration to her liver, and the lining of her intestines were
punctured, as was one of her lungs. The laceration was caused
by J.B. being hit so hard in the stomach that the object pushed
her stomach into her liver. She also had some broken ribs, and
the back of her skull was fractured.

that, based on the evidence, *491 “either that child suffered
those injuries in your hands, in your wife's hands or both of
your hands, okay?” Lopez said he was being honest, and Ruiz
responded by asking Lopez how else J.B. could have been
injured since they were the only adults in the house. Lopez
said that he did not know. Hinojos then suggested that it might
have been a heat-of-the-moment thing and that Lopez just
snapped. Lopez denied that.

c. Second Statement

But the thing is that that child suffered injuries at your hand
or the hands of your wife or both, like I said. And there's
not gonna be no way around it, okay? There's not gonna be
no way around it. Now, if you don't want to give a pliable
[sic] explanation, then let the courts decide, let them look
at you as monsters, okay?
Ruiz asked Lopez what would he think if he had seen the
injuries J.B. sustained, and Lopez responded that, “I would
think that something was seriously wrong.”

After receiving the results of the autopsy, Lopez was asked to
give another statement a few days later. That interview took
place on July 31 and began approximately at 7:55 p.m. and
ended at 10:08 p.m.
The second interview was conducted primarily by Hinojos.
Hinojos began the interview by reading Lopez his Miranda
rights and telling him that he was not under arrest and that
he was free to leave at any time. Once again, Lopez waived
his rights and agreed to speak to police. Lopez went over
the day of the offense again, and when he was finished,
Hinojos asked Lopez if he was a religious man. Lopez said
that he was and that he felt like “we did everything we could
for, you know, little [J.B.] even though we can't, you know,
explain exactly what happened. But you know, we feel that
our prayers are being heard” and that “God is on our side,
you know, and it's not like anything intentional or nothing like
that you know.” Hinojos asked Lopez if he omitted anything
during his first interview, or if he wanted to revise anything
he had already told them, and Lopez said no. That is when
the police confronted Lopez with the autopsy results and told
Lopez that they did not think that he was being honest.
**3 Hinojos told Lopez about the injuries J.B. sustained
and that, in the medical examiner's opinion, the injuries were
intentionally inflicted by an adult because a child could not
have hit J.B. with the necessary force to cause the injuries.
Hinojos then told Lopez that, “God may be on your side,
but when God sees what science has to show, I don't think
he's gonna be on your side very long, okay?” Lopez again
denied that he was involved, and Hinojos told him that, “if
you didn't do it, then that means that your wife did it.” Lopez
denied that his wife could have hurt J.B., and Ruiz responded

Throughout the interview, Hinojos and Ruiz returned to same
question: “If you did not hurt her, and Pearl did not hurt her,
how did she get those injuries?” Ruiz said multiple times that
he just wanted a reasonable explanation, but Lopez repeatedly
said that he did not know. At one point, Ruiz told Lopez that,

The questioning then turned back to who was at home the
day of the offense. At one point, Lopez said that she might
have been hurt while he was in the walk-in closet office, but
Hinojos pointed out that even if he was, he would have heard
if someone else hurt J.B. because he was only a few feet away,
and the walls were thin. Lopez agreed. He said that, “I would
have heard something. Yes, sir. I don't doubt that.” Ruiz asked
Lopez again for a reasonable explanation, and Lopez said that
he did not have one. Ruiz asked if maybe someone broke into
the house and to “give me something that I can go on and
verify.” Lopez responded, “I don't have anything to give you.”
In the face of Lopez's repeated denials that he assaulted J.B.,
Hinojos and Ruiz again told him that, if it was not him, it must
have been his wife, or maybe he was lying, and they were
both involved: “And then it's going to be both of you.... And
your kids can go to foster care.” Later, the following exchange
took place,
[RUIZ]: All I'm asking is for a reasonable explanation as
to how that baby ended up like that.
[LOPEZ]: I don't know. But I can honestly say I did not do
anything.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

DETECTIVE HINOJOS: (Unintelligible.)
[RUIZ]: And I can honestly tell you that that child suffered
those injuries while it was under your care and your wife's
care.

ending the interview at approximately 10:08 p.m. Hinojos
asked Lopez after the interview if he needed to “go to the
restroom or anything,” and Lopez said that he wanted some
water. Hinojos took Lopez to get some water. Lopez then left
the station with Pearl in their own vehicle.2

[LOPEZ]: No, no, no, no.
[RUIZ]: I can honestly tell you that, okay? Now who did
it? I don't know. But you know what? If we need to take
this to court, okay, if you need to go to jail and wait for
the courts to decide for both of you to be locked up, then
we'll do it, okay? But I can tell you right now, okay, that
that child suffered those injuries under your hand -[LOPEZ]: No.
[RUIZ]: -- or your wife's hand. Period. Period. Okay? Its[ ]
not a mysterious injury, okay? It's not -- you can't even offer
me an explanation like, okay, maybe she crawled out of the
crib and fell head first.
Ruiz also suggested again that Lopez might have “lost his
cool” and snapped, but Lopez denied it. Hinojos told Lopez
that they did not think that his wife injured J.B. because
everyone agreed that she was in the kitchen with the kids
making a cake *492 and that he needed to be honest. Lopez
responded that,
**4 [LOPEZ]: I didn't -- my wife wouldn't do it. I
wouldn't do it.
[RUIZ]: I know your wife didn't do it. But unfortunately,
if she has to answer for it, then she's gonna have to answer
for it, too.
[LOPEZ]: We would never do anything like that. Ever.
[RUIZ]: Somebody did. And you guys were the only ones
taking care of her.
[LOPEZ]: We're not capable of doing something like that.
[RUIZ]: Like I said, sometimes people do thing that they're
not necessarily capable of.
Hinojos then left the room for about 20 minutes, and when
he returned, he asked Lopez if he wanted some water. Lopez
said no, and Hinojos told him that “I'm just going back and
forth because we're talking to Pearl a[t] the same time and it's
just like -- just kinda trying to find an explanation for it all,
you know?” He also appealed to Lopez's faith again before

d. Events Following the Second Statement
At the motion-to-suppress hearing, Pearl testified that they
stopped in a hotel parking lot to talk after they left the station
and that she asked Lopez if he hurt J.B. Lopez denied it, and
Pearl said, “I told [the detective] you didn't do it. I didn't do
it, but we're both going to go to the jail. The officer clearly
said we're both going in....” Describing the investigator's
statements to defense counsel, she said that,
They told me that there were going to remove o[u]r kids.
They were going to go to CPS, that's what the officer told
me, and that -- the detective, I'm sorry. And that they were
going to go to foster care, that they were not going to go
with a family member because most likely -- that our family
members were gonna -- were protecting us so that they
weren't gonna go with anybody else, only foster care.
At that point, Pearl testified, Lopez told her that he was going
to turn himself in, though he reiterated to Pearl that he did
not hurt J.B. Pearl testified that, from there, she drove to her
parent's house, where they had been staying since the offense,
then took Lopez to their home. She said that she dropped
off Lopez then returned to her parent's house and called one
of the detectives (she could not remember which one) and
left a message that Lopez was going to turn himself in. Pearl
testified that Lopez confessed to her when he told her that he
was going to turn himself in, but she later testified that he did
not confess. Hinojos, who received Pearl's voicemail, testified
that she said in the message that, “I'm calling to let you know
that [Lopez] had confessed to me that he did it and can you
call me [ ] back, please.” He also testified that Pearl asked
multiple times, “Why did this happen?”

e. 911 Call
At 1:31 a.m.—about three and one-half hours after the
second statement concluded—Lopez called 911 and told
the dispatcher *493 that he was confessing that he had
committed a homicide a few days earlier and that he wanted
an officer to come to his house and arrest him. Officer Albert

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

Gandara responded. He arrived at about 1:49 a.m. Lopez told
him that he called 911 because he committed the homicide at
his house. Gandara transported Lopez to the police station, at
which time Lopez gave a third statement.

[DEFENSE]: He was told that his wife would be held
responsible for it if he didn't confess?
[RUIZ]: I don't believe we told him if he didn't confess.
***

f. Third Statement
**5 Lopez's third interview began at approximately 3:17
a.m. Lopez was warned and waived his rights. He told Ruiz
that everything he said about the day of the offense was true
except that, about 10 to 15 minutes before he called 911,
and while his two daughters were not in the bedroom, he
“put [J.B.] down on the floor and stomped on her like two
times; two, three time[s].” He demonstrated for police how he
stomped on J.B. Lopez said that he did not kick her as police
had suggested in earlier interviews because he had ingrown
toenails. Lopez could not really articulate why he did it. He
said that he was not frustrated with J.B., but he later said that
he was and that it was “a spur-of-the-moment” mistake. He
told Ruiz and Hinojos that he denied it so he could see his
wife and girls one more time.
At about 3:36 a.m., Lopez asked if he could lay down
somewhere. Ruiz terminated the interview at 3:43 a.m., and
he took Lopez to a cell, where Lopez fell asleep.

g. Testimony Relevant to Lopez's Statements
Ruiz and Hinojos testified about each statement Lopez
gave. During the cross-examination of Ruiz, the following
exchange took place,
[DEFENSE]: And that also includes, no fewer than 17
times telling him, when he denied doing this, that it must
be, therefore the case, that his wife did it?
[RUIZ]: That is correct.
[DEFENSE]: Okay. What did you mean to have him think
by that?
[RUIZ]: I just wanted him to rethink what he was telling us.
[DEFENSE]: All right. Did you mean to have them think
that if he did not confess and tell you what you knew to
be the truth, that his wife would also be held responsible
for this?
[RUIZ]: I believe he was told that at one point.

[DEFENSE]: And why are you telling him something
about his wife to help him to reconsider?
[RUIZ]: I was trying to make him look at the overall
picture, sir.
[DEFENSE]: Why particularly his wife?
[RUIZ]: Because there are two people in the house, two
adults, capable of causing those kind of injuries.

h. Findings of Fact and Conclusions of Law
The trial court found that Lopez was Mirandized and that he
waived those rights before giving each statement; that he was
told that he was not under arrest and that he could leave at
any time; and that Lopez was cooperative. It also found that
“at no time did police coerce or threaten [Lopez] into giving
a statement,” that he was not under the influence of drugs or
alcohol, and that he never asked to terminate the interviews
or asked for an attorney.
*494 Based on this, the trial court concluded that
Lopez's statements were freely and voluntarily made without
compulsion or persuasion under Article 38.21 and the Due
Process Clause.

APPEAL
Lopez argued on appeal that the trial court should have
granted his motion to suppress. According to him, Ruiz and
Hinojos overreached during the second interview when they
told him that they might arrest him and his wife and that CPS
might remove their children if Lopez did not confess. Lopez
v. State, No. 08-17-00039-CR, 2019 WL 3812377, at *6 (Tex.
App.—El Paso Aug. 14, 2019). The court of appeals found no
overreaching. It said that “police are entitled to make truthful
statements to an accused that accurately reflect the potential
consequences that an accused and his family member are
facing,” and the detective's statements were truthful because
the police had probable cause to arrest Lopez and his wife

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

and that CPS could remove their children if they were both
arrested.

2008); see Colorado v. Connelly, 479 U.S. 157, 170, 107 S.Ct.
515, 93 L.Ed.2d 473 (1986).

In finding that the inquiry turned only on the truth or falsity
of the statement, and in this case, whether probable cause
existed, the court of appeals relied on its own unpublished
decision and federal precedent. Id. (citing State v. Luna, No.
08-16-00273-CR, 2019 WL 1925004 (Tex. App.—El Paso
Apr. 30, 2019, no pet.)) (not designated for publication)
(citing United States v. Phillips, 230 Fed. App'x. 520, 524–25
(6th Cir. 2007); United States v. Gallardo-Marquez, 253 F.3d
1121, 1123 (8th Cir. 2001); United States v. Braxton, 112 F.3d
777, 782 (4th Cir. 1997); Hernandez v. State, 421 S.W.3d 712,
720 (Tex. App.—Amarillo 2014, pet. ref'd)).

The importance of the coercive-conduct requirement was
illustrated in Connelly. In that case, the Supreme Court held
that Connelly's confession was voluntary even though his
mental condition was seriously impaired; he suffered from
chronic schizophrenia and was “in a psychotic state following
the ‘voice of God’ at the time he *495 confesse[d].”
Oursbourn, 259 S.W.3d at 170. The Supreme Court found
no overreach because the police never engaged in tactics
to overbear Connelly's will. Id. (citing Connelly, 479 U.S.
at 164, 107 S.Ct. 515). The Court acknowledged that “[a]
statement rendered by one in the condition of [Connelly]
might be proved to be quite unreliable,” but it said that “the
Constitution rightly leaves this sort of inquiry to be resolved
by state laws governing the admission of evidence.” Connelly,
479 U.S. at 167, 107 S.Ct. 515.

STANDARD OF REVIEW
**6 [1]
[2] We afford almost total deference to the
trial court's findings of historical facts that are reasonably
supported by the record and to its resolution of mixed
questions that turn on credibility or demeanor when reviewing
a ruling on a motion to suppress. Guzman v. State, 955 S.W.2d
85, 87–91 (Tex. Crim. App. 1997). We review de novo a trial
court's legal conclusions and its resolution of mixed questions
that do not turn on credibility or demeanor. Id.

APPLICABLE LAW
[3] Under the Due Process Clause and articles 38.21 and
38.22 of the Texas Code of Criminal Procedure, a confession
must be “voluntary” to be admissible. Tex. Code Crim. Proc.
arts. 38.21 and 38.22. Involuntariness is reviewed under
the Due Process Clause and articles 38.21 and 38.22 by
examining the totality of the circumstances surrounding the
confession. Smith v. State, 779 S.W.2d 417, 427 (Tex. Crim.
App. 1989).

a. Due Process
[4] To prevail on a due-process “involuntary confession”
claim, a defendant must show (1) that police engaged in
activity that was objectively coercive, (2) that the statement is
causally related to the coercive government misconduct, and
(3) that the coercion overbore the defendant's will. Contreras
v. State, 312 S.W.3d 566, 574 (Tex. Crim. App. 2010);
Oursbourn v. State, 259 S.W.3d 159, 170–71 (Tex. Crim. App.

b. State Law
Article 38.21 states that, “[a] statement of an accused may
be used in evidence against him if it appears that the same
was freely and voluntarily made without compulsion or
persuasion, under the rules hereafter prescribed.” Tex. Code
Crim. Proc. art. 38.21. Article 38.22 contains those prescribed
rules. Id. art. 38.22, § 6. This case involves only Section 6,
the “general voluntariness” provision of Article 38.22, so we
address only it.3
Section 6 states in relevant part that,4
In all cases where a question is raised as to the voluntariness
of a statement of an accused, the court must make an
independent finding in the absence of the jury as to whether
the statement was made under voluntary conditions.
If the statement has been found to have been voluntarily
made and held admissible as a matter of law and fact by
the court in a hearing in the absence of the jury, the court
must enter an order stating its conclusion as to whether
or not the statement was voluntarily made, along with the
specific finding of facts upon which the conclusion was
based, which order shall be filed among the papers of the
cause.
**7
***

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

Upon the finding by the judge as a matter of law and
fact that the statement was voluntarily made, evidence
pertaining to such matter may be submitted to the jury and
it shall be instructed that unless the jury believes beyond a
reasonable doubt that the statement was voluntarily made,
the jury shall not consider such statement for any purpose
nor any evidence obtained as a result thereof.
***
Id.
[5] “Claims of involuntariness under Article 38.22 can be,
but need not be, predicated on police overreaching.” They can
also involve “ ‘sweeping inquiries into the state of mind of
a criminal defendant who has confessed’ ... that are not of
themselves relevant to due process claims.” Oursbourn, 259
S.W.3d at 172. This is because Section 6 protects suspects
from themselves, not only police overreach, as does the Due
Process Clause. Thus, for example, we have said that “[a]
confession given under the duress of hallucinations, illness,
medications, or even a private threat ... could be involuntary
under Article 38.21 and the Texas confession statute.” Id. at
172 (footnotes omitted). Had Connelly confessed in Texas,
we noted, he might have had a viable claim under Article
38.22. Id. at 172; see 24A Tex. Jur. 3d Crim. Proc.: Trial §
691 (2017) (“A statement that is ‘involuntary’ as a matter
of [federal] constitutional law is also ‘involuntary’ under the
State ‘Confession *496 Statute,’ but the converse need not
be true.”).

APPLICATION
Because police overreach is a predicate to due-process relief,
and Lopez's Article 38.23 claim is based on only police
overreach, the threshold issue is whether Ruiz and Hinojos
objectively engaged in coercive tactics.5 Lopez argues that
threatening to throw a man's wife in jail is inherently coercive
and that it “is just the type of thing that is likely to overbear
a person's will.” The trial court and court of appeals found no
overreach. The court of appeals pointed out that “a confession
is not rendered inadmissible in every instance in which the
police have made statements regarding the potential liability
of an accused and his family members,” and it concluded
that Ruiz and Hinojos did not overreach because they had
probable cause to arrest Pearl. Lopez, 2019 WL 3812377,
at *6. The court did not, however, account for any other
circumstance surrounding the confession.

[6] [7] Police threats to arrest a defendant's close family
member can constitute objective coercive conduct depending
on the facts of each case. Id. The difference between a threat to
arrest a defendant's close family member that weighs in favor
of finding police overreach versus one that does not can be
a fine line. And courts must carefully consider, not only the
complained-of statements, but also the context in which they
were made, including the demeanor of the person who made
them and the truth or falsity of the statements.
**8 Context is crucial because it informs what the police
meant when they made the complained-of statements. For
example, one officer might mean that police could arrest
a suspect's close family member “right then” because
police had probable cause to do so when the statement
was made. Another officer might mean that they could
arrest the family member in the future because he is a
legitimate suspect, although police do not yet have probable
cause. Yet another might mean that they could arrest the
close family member even though the family member is
not suspected of wrongdoing to coerce the suspect into
confessing. That is why the totality-of-the-circumstances
standard is particularly suited for this type of analysis—
it already requires courts to consider all the circumstances
surrounding the confession6—but reliance on only the truth or
falsity of the statements, and in this case, whether police had
probable cause, can lead to unintended consequences. Smith,
779 S.W.2d at 427 (totality-of-the-circumstances analysis
applies to “involuntary” confession claims under both the Due
Process Clause and articles 38.21 and 38.22). For example,
what if police obtain a confession directly after threatening to
arrest a close family member who they had probable cause to
arrest, but before that, police deprived the accused of food and
sleep and interrogated him for hours on end? We do not mean
to say that such a statement is involuntary. Those facts are not
before us. Rather, the example is meant to illustrate *497 the
difficulty in trying to examine police conduct in a vacuum and
the importance of examining all the circumstances. Under the
court of appeals's analysis, the only circumstances that would
matter are whether the statements were true and whether
police had probable cause to arrest the close family member
when the threat was made.
It appears that the court of appeals used the probable-cause
analysis, at least in part, based on our short discussion of
it in Contreras. In that case, however, we merely observed
that some jurisdictions had used the analysis, but that we
did not need to decide whether to do so because police did

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

not have probable cause to arrest Contreras's wife. We were
not foreshadowing our eventual adoption of the probablecause analysis by merely discussing it. And now, squarely
presented with the issue, we decline to adopt it. We will
continue to apply the totality-of-the-circumstances standard
when determining the voluntariness of a confession. For the
same reason that the court of appeals in this case erred in
relying on our dicta in Contreras, it erred when it reached
the same conclusion in its earlier unpublished Luna decision.
Luna (relying on Contreras, 312 S.W.3d at 574; Diaz v. State,
No. 13-14-00675-CR, 2017 WL 4987665, at *5 (Tex. App.
—Corpus Christi Nov. 2, 2017, pet. ref'd) (mem. op., not
designated for publication)).
[8] After reviewing the transcript of the suppression
hearing, the transcript of Lopez's statements, listening to
the interviews, and viewing the record in the light most
favorable to the trial court's ruling, we conclude that Ruiz's
and Hinojos's statements did not cross the line into objectively
coercive conduct. The record supports the trial court's
findings that Lopez voluntarily went to the police station
to give the second statement; that he was Mirandized, but
waived those rights; that he was told that he was not under
arrest; that he was not placed in handcuffs; and that he
was told that he could leave at any time. It also found that
Lopez was told that he could ask for an attorney and end the
interview at any time, but he did neither. The complainedof interview, the second one, lasted only about 2 hours and
15 minutes, part of which consisted of Lopez sitting in
the interview room alone. He was also offered a drink but
declined.
The State argues that a close reading of the record shows that
neither Ruiz nor Hinojos threatened Lopez, only that they told
him how things might unfold. We agree. Ruiz and Hinojos
told Lopez that if he and his wife denied involvement that they
could arrest both of them and let the courts “sort it out” and
that, if that happened, their “kids [could] go to foster care.”7
This accurately reflects the state of the investigation: Lopez
admitted that he watched J.B. that day and rarely left her,
and he agreed that his wife was in the kitchen with the kids
making and decorating a cake except when he brought his two
young daughters in the bedroom to watch television. So police
believed that Lopez acted alone, but they could not rule out
the possibilities that (1) Pearl acted alone, (2) *498 Lopez
and Pearl acted together, probably one as a party covering
up the offense, or (3) that someone broke into the house and
injured J.B. Even Lopez recognized the dilemma based on the
medical evidence and his story that neither he nor his wife

hurt J.B. and that no one broke into the house. Similarly, Ruiz
and Hinojos did not tell Lopez that CPS would remove their
children if he and Pearl were arrested, just that they could be
removed.
**9 [9] Lopez contends that police did not have probable
cause to arrest Pearl based on the outlined evidence, but
we disagree. “Probable cause requires an evaluation of
probabilities, and probabilities ‘are the factual and practical
considerations of everyday life on which reasonable and
prudent men, not legal technicians, act.’ ” Wiede v. State, 214
S.W.3d 17, 24 (Tex. Crim. App. 2007) (quoting Brinegar v.
United States, 338 U.S. 160, 175, 69 S.Ct. 1302, 93 L.Ed.
1879 (1949)). An evaluation of the probabilities here based
on the known evidence shows that either Lopez, his wife, or
both were involved in injuring J.B.
Lopez also argues that his confession was inadmissible
because Ruiz's and Hinojos's threats were of the kind that
would likely induce a false confession. He directs us to
Coleman v. State, 440 S.W.3d 218, 223 (Tex. App.—Houston
[14th Dist.] 2013, no pet.) to support his argument. That
language refers to our line of cases holding that a confession
might be inadmissible if the accused can show that an
affirmative promise of some benefit was made or sanctioned
by a person in authority and that the promise was likely to
influence the defendant to speak untruthfully. Fisher v. State,
379 S.W.2d 900, 902 (Tex. Crim. App. 1964) (relying on A.R.
Stout, 1 Branch's Annotated Penal Code of Texas § 88.1, at
95 (2d 1956)). Even if we applied that test here, as we have
already explained, the record supports the trial court's finding
that no affirmative threats were made.
Lopez maintains that this case is like Tovar v. State, 709
S.W.2d 25, 29 (Tex. App.—Corpus Christi 1986, no pet.), in
which the court held that Tovar's confession was involuntary,
but it is distinguishable. In that case, Tovar was driving his
wife's vehicle when police stopped him. He was found to
have marijuana in his possession, and he later confessed when
police told him that his wife would not be charged if he “took
the wrap,” but that she would be if he did not. Id. Tovar's wife
was not in the car when police stopped Tovar, and there was no
evidence suggesting that his wife knew about the marijuana,
much less that she had care, custody, or control of it. Lopez,
2019 WL 3812377, at *8. Lopez also cites Roberts v. State,
545 S.W.2d 157, 159–60 (Tex. Crim. App. 1977), in which
Roberts and his wife were stopped in their vehicle by police
after police observed Roberts purchasing heroin. Id. at 159–
60.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Lopez v. State, 610 S.W.3d 487 (2020)
2020 WL 6479197

First, unlike Tovar (where the confession was found to be
involuntary), but like Roberts (where the confession was
found to be voluntary), Lopez and Pearl were legitimate
suspects, and police had probable cause to arrest both at the
time that the statements were made. Second, there was a quid
pro quo in Tovar that his wife would not be charged if he
confessed, but there was no such bargain in Roberts or this
case. Roberts, 545 S.W.2d at 161 (emphasis added) (stating
that “[a] threat made by police officers to arrest or punish
a close relative or a promise to free a relative of a prisoner
in exchange for a confession may render the prisoner's
subsequently made confession inadmissible in evidence”).
After considering the totality of the circumstances, we
agree with the trial court and court of appeals that Lopez's
statements *499 were voluntary under the Due Process
Clause and articles 38.21 and 38.22.

Lopez also questions the court of appeals's harm analysis,
which held that any error in admitting his confession was
harmless because he also confessed to a CPS investigator who
testified without objection. We do not address that analysis,
however, because we agree that the trial court did not err in
denying the motion to suppress.

CONCLUSION
**10 We affirm the judgment of the court of appeals
upholding the ruling of the trial court.

Yeary and Keel, JJ., concurred.
All Citations
610 S.W.3d 487, 2020 WL 6479197

HARM

Footnotes

1
2
3
4
5

6

7

This practice—when one foster family takes custody of another foster family's child for a short period of time—is referred
to as respite care. Pearl testified that respite care is for when “the parents’ want to take a vacation, they want a break,
or ... they want to go out....’ ”
Ruiz testified at the motion-to-suppress hearing that Lopez was not denied basic necessities.
Defense counsel said that his only argument was that Lopez's confession was inadmissible because it was the product
of police coercion.
Because Section 6 of Article 38.22 is written in a single, large paragraph, two paragraph breaks have been added to
assist the reader.
As we noted earlier, a defendant can prove that his confession was involuntary based on his state of mind even in the
absence of police overreach under articles 38.21 and 38.22, but defense counsel expressly stated that he was alleging
only police coercion.
Although dealing with Miranda, we note that the United States Supreme Court declined to adopt a different standard for
juveniles who waive their Miranda rights than adults. Fare v. Michael C., 442 U.S. 707, 725, 99 S.Ct. 2560, 61 L.Ed.2d
197 (1979). It said that the totality-of-the-circumstance approach already requires “inquiry into all the circumstances
surrounding the interrogation....” Id.
Pearl testified that the CPS comments directed at her went further and that she was told that, not only could they lose
their children if they were both arrested, but also that a close family member would probably not get custody if they
supported Lopez and Pearl.
Even if those statements were made to Pearl, it would not matter for purposes of our due-process analysis because
they do not inform whether police overreached in the complained-of interview with Lopez. On the other hand, what
Pearl said might be relevant to an Article 38.22 claim because we have held that a private actor's conduct can render
a confession involuntary, but we do not address that possibility because Lopez specifically predicated his claim on only
police overreach.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

APPENDIX E

IN THE 171 sT DISTRICT COURT
EL PASO COUNTY. TEXAS

§
§
§

v.

ANTONIO LOPEZ

CAUSE NO.

COMES NOW Antonio Lopez, Defendant herein, by and through his attorney of record
and moves the Court to suppress statements made by him to law enforcement
officers on or about August I, 2012,
support of such motion the Defendant would show:

officers in which he admitted to committing acts which caused the death of Jayla Marie Beckley. the
person he is alleged to have murdered in this case.

persuasion because the law enforcement officers who had interrogated, and were interrogating, him
murder of Jayla Marie Beckley if one of
them did not confess to it.
2. The Defendant's statements were not freely and voluntarily made without compulsion or

and his wife threatened to cause his children to be taken from him and his wife by Child Protective
and

in foster care by arresting him, his wife, or both for the capital murder of Jayla

Marie Beckley if one of them

24

. ....
3. Defendant's oral statements were not taken in compliance with Texas Code of Criminal
Procedure article 38.22, Section 3.
4 Forth" '

fhp

o

AffhP

n

C

t

~

mPrP

Ahto;nPrl ;n ·

.

..

,+

the Fifth, Sixth, and Fourteenth Amendments to the United States Constitution, Article I, Sections
9 and 10 of the Texas Constitution, and Articles 1.05, 38.21, 38.22, and 38.23 of the Texas Code of
Criminal Procedure.
WHEREFORE, the Defendant prays the court grant this motion and suppress the statements
maae oy nim w 1aw enrorcemem omcers on or about August I, LUlL

the Uetenaant further

requests that the court make specific findings of fact and conclusions oflaw in support of its ruling.

~~

/

_,.< _# j/ /17./
v

"-'---

(

ROBIN NORRIS
Texas Bar No. 15096200
2408 Fir Street
mn

•

'T' .

m
\ 7 l J ) J"-7-'WVV

ro hi nnorri s@shc global. net
ATTORNEY FOR DEFENDANT

CERTIFICATE OF SERVICE
I hereby certifY that a true and correct copy of the foregoing motion was delivered by me in
oerson to the Office ofthe District Attomev at 500 E. San Antonio 2"d Floor El P~'"
on

;~/yp&/5

A

A~

TP ·o< 70001

~

)/ /(/ j

IX: .__,.___ v
/
ROBIN NORRIS

/

")

25

